                              O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral


South w e s t TacticalO pe rations Pl
                                    an: D e m ograph ic Ch aracte ris tics of Sam pl
                                                                                   e

Re cipie nts


A ttach e d is a copy of our finalre port e ntitl    e d, “South w e s t TacticalO pe rations
Pl an: D e m ograph ic Ch aracte ris tics of Sam pl     e Re cipie nts ”(A-06-9 7-62001). O ur
obje ctive w as to de te rm ine w h e th e r s e l
                                                 e cte d de m ograph ic ch aracte ris tics from
SocialSe curity Adm inis tration (SSA )data can indicate th e pote ntialre s ide ncy
s tatus of re cipie nts ch os e n as part of th e O ffice of th e Ins pe ctor Ge ne ral  ’s
South w e s t TacticalO pe rations Pl   an.

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
60 days from th e date of th is m e m orandum . Ifyou w is h to dis cus s th e final
re port, ple as e cal
                    lm e or h ave your s taff contact Pam e l a J. Gardine r, Assistant
Ins pe ctor Ge ne ralfor Audit, at (410)9 65-9 700.




                                                D avid C. W il
                                                             liam s

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
                            h /12-30-9 7 9 7-61002.
SSA /O IG/O A /BPA TTISO N/cl
Re port Fil
          e
                    E X E CUTIVE S U M M A R Y 


O BJECTIVE

Th e obje ctive of th is e valuation w as to de te rm ine w h e th e r s e l
                                                                           e cte d de m ograph ic
ch aracte ris tics from SocialSe curity Adm inis tration (SSA )data can indicate th e
pote ntialre s ide ncy s tatus of re cipie nts ch os e n as part of th e O ffice of th e Ins pe ctor
Ge ne ral’
         s (O IG)South w e s t TacticalO pe rations Pl     an (STO P).

BACKGROUND

Suppl    e m e ntalSe curity Incom e (SSI)is a ne e ds -bas e d program th at provide s
as s is tance to age d, bl      ind or dis abl
                                             e d adul ts , and blind or dis abl e d ch il
                                                                                        dre n. In orde r to
be e l  igible for SSI, an individualm us t: (1)h ave l        im ite d incom e and re s ource s ;(2)be
age d, dis abl    e d, or bl  ind;and (3)be a U.S. re s ide nt and e ith e r a citize n, national     , or
eligibl  e al ie n. (Th e form e r s tandards unde r titl   e XVIof th e SocialSe curity Act
provide d SSI to al       ie ns l aw ful
                                       ly adm itte d for pe rm ane nt U.S. re s ide nce ;or al  ie ns
pe rm ane ntl    y re s iding in th e Unite d State s unde r col  or of l aw .) Se ve ralre ce nt l  aw s
and am e ndm e nts h ave m ade ch ange s to th e SSIal           ie n program . Th e s e l
                                                                                 1
                                                                                            e gis lative
ch ange s al    s o am e nd th e Im m igration and National     ity Act.

SSA s taff in fie l d office s (FO )al   ong th e U.S.-M e xico borde r h ave al   le ge d th at
individual  s are obtaining SSIw h il      e in th e Unite d State s and s ubs e q ue ntly m ove to a
fore ign country. Ifnot de te cte d, re cipie nts w il      lcontinue re ce iving paym e nts to w h ich
th e y are not e ntitl e d. SSA /O IG im pl    e m e nte d STO P in ElPas o, Te xas , to de te rm ine if
individual  s are fraudul   e ntly re ce iving SSIpaym e nts . Th e pil  ot proje ct prim aril  y w as to
ide ntify, s us pe nd, and te rm inate SSIas s is tance to re cipie nts re ce iving paym e nts
bas e d on fraudul   e nt s tate m e nts re garding re s ide ncy.

Th e pilot proje ct incl    ude d: (1)a m ail e r ope ration re q ue s ting th at individual s provide
proof of re s ide ncy;and (2)a m atch ing ope ration w ith th e Im m igration and
Natural  ization Se rvice (INS)and th e Te xas Bure au of VitalStatis tics (BVS) to val            idate
citize ns h ip and birth re cord inform ation containe d in SSA re cords . Us ing a varie ty of
data anal    y s is s oftw are program s , w e anal yze d th e data th at w e re q ue s te d as part of
th e m ail e r ope ration.




1
    Publ
       ic Law 104-19 3;Publ
                          ic Law 104-208;Publ
                                            ic Law 105-18 and, Publ
                                                                  ic Law 105-33


                                                   i
FIND INGS

In th e fol l
            ow ing findings , w e de m ons trate th e us e ful ne s s of SSA ’ s data in de te rm ining
pote ntialre s ide ncy is s ue s . W e focus e d on ide ntifying factors th at infl ue nce th e
lik e l
      ih ood th at individual s are nonre s ide nts of th e Unite d State s , as w e l
                                                                                     las on data
th at individual  s (e .g., SSA s taff)al e ge m ay indicate nonre s ide ncy. W e al
                                          l                                             s o provide
s om e ge ne ralde m ograph ic data as a m e ans of de s cribing th e popul      ation incl ude d in
th is proje ct.

• SSA RECO RD S IND ICA TE M O ST NO NCITIZ EN STO P RECIPIENTS2 ARE FRO M
  M EXICO

• REGARDLESS O F CO UNTRY O F O RIGIN, M A NY STO P RECIPIENTS REQUEST SSA
  CO M M UNICA TIO NS IN SPANISH

• O VER O NE-H A LF O F STO P RECIPIENTS PRO VID ED SSA W ITH TH E SA M E
  A D D RESS AS AT LEAST TW O O TH ER RECIPIENTS

• USE O F CO M M ERCIA LM A ILBO XES M A Y IND ICA TE PRO BLEM S

• TH IRTEEN PERCENT O F STO P RECIPIENTS RESID E IN PUBLIC H O USING

• STO P RECIPIENTS ARE LESS LIKELY TO H A VE REPRESENTA TIVE PAYEES
  (PAYEES)TH AN TH E NA TIO NA LSSI PO PULA TIO N

• RECEIPT O F O A SD IBENEFITS M A Y SUGGEST PRIO R U.S. RESID ENCY

• M A JO RITY O F STO P RECIPIENTS ARE RECEIVING SSIBASED O N AGE

• GEND ER BREA K D O W N O F STO P RECIPIENTS M IRRO RS TH E NA TIO NA LSSI
  PO PULA TIO N

• IN A LLCA TEGO RIES O F SSIASSISTANCE, RECIPIENTS ARE M O RE LIKELY TO BE
  FEM A LE

• STO P RECIPIENTS ARE M O RE LIKELY TO BE AGED TH AN TH E NA TIO NA LSSI
  PO PULA TIO N




2
  Th e te rm STO P re cipie nts re pre s e nts th os e SSIre cipie nts w h os e addre s s e s fe l
                                                                                                 lw ith in th e tw o Z IP
code s of ElPas o.


                                                           ii
CO NCLUSIO N AND RECOMMENDATIO N

O IG s e le cte d al lre cipie nts in th e tw o s am pl   e Z IPcode s to de te rm ine th e e xte nt of
re s ide ncy is s ue s for a pote ntial  ly h igh -ris k unive rs e of SSIre cipie nts . In future
proje cts , our goalis to profil     e pote ntialnonre s ide nts to h e l p m axim ize th e re turn on
e fforts s im ilar to STO P and h e l   p SSA ide ntify nonre s ide nts be fore th e y re ce ive SSI.

SSA ’  s data, us e d in com bination w ith oth e r s ource s of inform ation, provide a
val  uabl e toolfor ide ntifying pote ntialnonre s ide nts . For e xam pl
       e , w e ide ntifie d
re cipie nts w h o us e d com m e rcialm ail   -box s e rvice s by se arch ing th e l   ocalte l
e ph one
book for th e addre s s e s of com m e rcialm ail     -box s e rvice s and com paring th e s e
addre s s e s to th os e of re cipie nts . Us ing s im ilar te ch niq ue s , w e ide ntifie d
individual   s living in nurs ing h om e s and publ    ic h ous ing. Th e s e re cipie nt "groups "
w arrant diffe re nt l  e ve l
                             s of re vie w not onl  y during a re s ide ncy s tudy, s uch as
STO P, but at th e tim e of initialappl      ication. Th e re fore , w e re com m e nd th at SSA
cons ide r SSIcl    aim ants ’ch aracte ris tics (e .g., type of addre s s )in de ve l    oping
proce duralguidance to as s is t FO s in ide ntifying SSIcl         aim ants w ith q ue s tionabl     e
re s ide ncy s tatus .3

SSA CO M M ENTS AND OIG REPO NSE

SSA agre e d w ith our re com m e ndation and w il lupdate its Program O pe rations
M anualSys te m (PO M S)accordingl      y. W e m ade m inor re vis ions to th e re port to
re fl        s te ch nicalcom m e nts .
    e ct SSA ’




3
   Th is is not to s ugge s t th at SSA sh oul   d us e al
                                                         lch aracte ris tics ide ntifie d in th is re port for al  l
re cipie nts and/or cl aim ants . D iffe re nt re gions of th e Unite d State s m ay h ave diffe re nt
ch aracte ris tics (or com binations of ch aracte ris tics )w h ich m igh t indicate q ue s tionabl    e re s ide ncy
s tatus .


                                                            iii
                      TA BLE O F CO NTENTS


                                                                                                   Page

EXECUTIVE SUM M A RY ............................................................................. i


INTRO D UCTIO N ...................................................................................... 1


FIND INGS............................................................................................... 5


    SSA RECO RDS IND ICA TE M O ST NO NCITIZ EN STO P RECIPIENTS ARE

    FRO M M EXICO ................................................................................... 5


    REGARDLESS O F CO UNTRY O F O RIGIN, M A NY STO P RECIPIENTS

    REQUEST SSA COMMUNICA TIO NS IN SPA NISH ..................................... 6


    O VER O NE-H A LF O F STO P RECIPIENTS PRO VID ED SSA W ITH TH E

    SAM E A D D RESS AS AT LEAST TW O O TH ER RECIPIENTS ........................ 6


    USE O F CO M M ERCIA LM A ILBO XES M A Y IND ICA TE PRO BLEM S............... 7

    TH IRTEEN PERCENT O F STO P RECIPIENTS RESID E IN PUBLIC H O USING .... 8


    STO P RECIPIENTS ARE LESS LIKELY TO H A VE PAYEES TH A N TH E

    NA TIO NA LSSI PO PULA TIO N................................................................ 8


    RECEIPT O F O A SD IBENEFITS M A Y SUGGEST PRIO R U.S. RESID ENCY ..... 9


    M A JO RITY O F STO P RECIPIENTS ARE RECEIVING SSIBASED ON AGE ...... 9


    GEND ER BREA K D O W N O F STO P RECIPIENTS M IRRO RS TH E NA TIO NA L

    SSIBREA K D O W NS ........................................................................... 10


    IN A LLCA TEGO RIES O F SSIASSISTA NCE, RECIPIENTS ARE M O RE

    LIKELY TO BE FEM A LE ...................................................................... 10


    STO P RECIPIENTS ARE M O RE LIKELY TO BE AGED TH A N TH E

    NA TIO NA LSSI PO PULA TIO N.............................................................. 10


CO NCLUSIO N AND RECO M M END A TIO N .................................................. 13




                                                     iv
A PPEND ICES

A PPEND IX A - M ajor Re port Contributors
A PPEND IX B - SSA O rganizationalCh art
A PPEND IX C - A ge ncy Com m e nts
                                INTR O D UCTIO N


O BJECTIVE

Th e obje ctive of th is e valuation w as to de te rm ine w h e th e r s e l
                                                                           e cte d de m ograph ic
ch aracte ris tics from SSA ’ s data can indicate th e pote ntialre s ide ncy s tatus of
re cipie nts ch os e n as part of th e O IG’
                                           s STO P.

BACKGROUND

SSA adm inis te rs tw o program s unde r th e SocialSe curity Act—SSI(titl         e XVI)and
Ol d-A ge , Survivors and D is ability Ins urance (O A SD I)(titl  e II). SSI, a ne e ds -bas e d
program , provide s as s is tance to age d, bl    ind or dis abl
                                                               e d adul ts , and bl
                                                                                  ind or
dis able d ch il
               dre n. SSIw as e s tabl is h e d in 19 72 and w as inte nde d to aid individual    s
w h o h ad littl
               e or no SocialSe curity cove rage .

SSIEl
    igibil
         ity

SSIh as s pe cific e l     igibil ity re q uire m e nts . Individual   s cannot h ave countabl      e incom e
gre ate r th an th e m axim um be ne fit l          e ve lor ow n re s ource s w orth m ore th an $2,000
($3,000 for a coupl          e ), s ubje ct to ce rtain e xcl   us ions . Individual  s als o m us t be at
le as t 65 ye ars ol    d, bl  ind, or dis abl    e d. To be cons ide re d dis abl   e d, adul ts m us t be
unabl   e to e ngage in any s ubs tantialgainfulactivity be caus e of a ph y s icalor m e ntal
im pairm e nt e xpe cte d to re s ul       t in de ath or l          e as t 12 m onth s . For ch il
                                                             as t at l                               dre n,
th e im pairm e nt m us t m e e t th e durationalre q uire m e nt and re s ul         t in m ark e dly s e ve re
functionall     im itation. Final      ly, individual    s m us t be U.S. re s ide nts and e ith e r citize ns ,
national   s , or e ligibl  e al ie ns . (Th e form e r s tandards unde r titl    e XVIof th e Social
Se curity Act provide d SSI to al             ie ns law ful ly adm itte d for pe rm ane nt U.S.
re s ide nce ;or al   ie ns pe rm ane ntl     y re s iding in th e Unite d State s unde r col    or of law .)
Se ve ralre ce nt l   aw s and am e ndm e nts h ave m ade ch ange s to th e SSIal               ie n
program . Th e s e l      e gis lative ch ange s al     s o am e nd th e Im m igration and National     ity
A ct.

Succe s s ful
            ly obtaining SSIas s is tance ge ne ral    ly brings autom atic e l igibil
                                                                                     ity to
M e dicaid, Food Stam ps , and oth e r Fe de raland State as s is tance program s . Since it
is an e ntry point for re ce iving oth e r as s is tance , th e im pact of individuals
fraudul e ntl
            y re ce iving SSIis far-re ach ing.




                                                      1

SSA FO A l
         le gations

SSA s taff in FO s al      ong th e U.S.-M e xico borde r h ave al   l
                                                                     e ge d th at individual  s are
obtaining SSIw h il      e in th e Unite d State s and s ubs e q ue ntly m ove to a fore ign
country. Ifnot de te cte d, re cipie nts w il      lcontinue re ce iving paym e nts to w h ich
th e y are not e ntitl   e d. A n O IG re port on an SSA initiative in Ch ul     a Vis ta, Cal  ifornia,
dis cl os e d th at 47.2 pe rce nt of th e SSIre cipie nts th at SSA s taff re fe rre d for
re s ide ncy ve rification w e re found ine l    igibl
                                                     e be caus e th e y w e re re s iding in M e xico.4
W h il e probl  e m s s im il
                            ar to th is m igh t be occurring in oth e r are as of th e Unite d
State s , it is b e lie ve d to be m os t pre val e nt al
                                                        ong th e U.S.-M e xico borde r.

O IG Pil
       ot Proje ct

SSA /O IG im pl   e m e nte d STO P in ElPas o, Te xas , to de te rm ine if individual s w e re
fraudul  e ntl
             y re ce iving SSIpaym e nts . Th e proje ct prim aril
  y is inte nde d to ide ntify,
s us pe nd, and te rm inate SSIas s is tance to re cipie nts re ce iving paym e nts bas e d on

fraudul  e nt s tate m e nts re garding re s ide ncy. O IG al
                                                            s o is look ing at oth e r e l
                                                                                         igibil

                                                                                               ity
factors , incl  uding:

•   age ;
•   dis ability;
•   citize ns h ip;
•   type of re s ide nce (e .g., jail
                                    , nurs ing h om e );
•   incom e ;and
•   re s ource s .

Th e pilot proje ct incl
                       ude d: (1)a m ail  e r ope ration re q ue s ting th at individual
                                                                                       s
provide proof of re s ide ncy;and (2)a m atch ing ope ration w ith INS and Te xas BVS
to validate SSA data re l  ate d to birth re cords and citize ns h ip inform ation.

Both O IG O ffice s of Inve s tigations (O I)and Audit (O A )are w ork ing on th e pil        ot
proje ct. O Iprim aril  y is re s pons ible for inve s tigating q ue s tionabl
                                                                             e cas e s (e .g.,
pote ntialnonre s ide ncy) th at aris e as a re s ul  t of th e proje ct;O A prim arily is
re s pons ibl e for anal yzing th e outcom e s of th e individualinitiative s of th e proje ct
(e .g., th e m aile r ope ration, th e BVS birth -re cord m atch , e tc.). Bas e d on th e s e
e fforts , O IG w illde te rm ine th e us e ful
                                              ne s s of s uch an e ffort in oth e r l
                                                                                    ocations .




4
  SSA/O IG, Th e A de q uacy of th e Re s ide ncy Ve rification Proce s s for th e Suppl
                                                                                       e m e ntalSe curity
Incom e Program , A -06-9 6-62001, M ay 19 9 7, page 5.



                                                       2

Proje ct Location

W e sel   e cte d th e ElPas o SSA FO as
th e proje ct s ite be caus e of its
proxim ity to th e U.S.-M e xico
borde r. ElPas o, a city of
approxim ate l    y 652,000, s h are s its
city borde r w ith th e M e xican
borde r. D ire ctl   y acros s th e Rio
Grande (conne cte d by various foot
and autom obil      e bridge s )is
Ciudad Juare z, M e xico, a city of
approxim ate l    y 1.2 m illion pe opl   e.
Th e re l ative e as e of trave lbe tw e e n
th e tw o citie s h as re s ul te d in m any
pe opl  e ide ntifying ElPas o and
Ciudad Juare z as one l       arge city.
SSA s taff and ElPas o re s ide nts
w ith w h om w e s pok e be l     ie ve d re s ide ncy ch oice s ofte n are bas e d on cos t and
proxim ity to fam il    y and frie nds rath e r th an th e de s ire to l ive in a s pe cific country.
Th e re fore , SSA s taff h ave s ugge s te d th at ElPas o SSIre cipie nts m ay not be
m e e ting th e re s ide ncy re q uire m e nts .

M ETH O D O LO GY

For th is re vie w , w e us e d th e data file th at w e re q ue s te d as part of th e m ail  er
ope ration. W e re q ue s te d an e xtract of data from th e Suppl          e m e ntalSe curity
Re cord, th e data bas e SSA u s e s to m aintain inform ation on SSIre cipie nts . W e
sel e cte d allSSIre cipie nts w ith a m ail   ing addre s s in th e 79 9 01 and 79 9 12 Z IP
code s . Th e s e Z IPcode s w e re s e l e cte d judgm e ntal y to addre s s a varie ty of
                                                               l
factors , incl  uding proxim ity to th e U.S.-M e xico borde r, h ous e h ol       d incom e le ve l
                                                                                                   s
(as ge ne ral  ize d by th e FO ), th e nature and num be r of al     le ge d nonre s ide nt
re cipie nts , and th e num be r of re cipie nts in th e finalunive rs e . Both of th e s e Z IP
code s are l   ocate d w ith in th e ElPas o city l im its .

Th e data fil   e containe d a totalof 2,107 re cords . W e us e d a varie ty of data
anal  y s is s oftw are program s to anal   yze th e data. Since th e prim ary focus of STO P
is re s ide ncy is s ue s , w e did not de te rm ine w h e th e r re cipie nts w oul
                                                                                   d re m ain e l
                                                                                                igibl
                                                                                                    e
bas e d on re ce ntl  y e nacte d or propos e d l  e gis l
                                                         ative ch ange s .

Th is re port is one in a s e rie s of re ports re l
                                                   ate d to th e STO P proje ct. Additional
re ports w illcontain inform ation on oth e r as pe cts of STO P, incl   uding re s ul
                                                                                     ts of th e




                                                   3

inve s tigation, and INS and Te xas BVS m atch ing e fforts . Th is ins pe ction w as
conducte d in accordance w ith th e Q ual  ity Standards for Ins pe ctions is s ue d by th e
Pre s ide nt's Councilon Inte grity and Efficie ncy.




                                              4

                                          FIND INGS


In th e fol l
            ow ing findings , w e de m ons trate th e us e ful  ne s s of SSA ’
                                                                              s data in
de te rm ining pote ntialre s ide ncy is s ue s . W e focus e d on ide ntifying factors th at
influe nce th e lik e l
                      ih ood th at individual  s are nonre s ide nts of th e Unite d State s , as
w ellas on data th at individual     s (e .g., SSA s taff)al  l
                                                              e ge m ay indicate nonre s ide ncy.
W e al s o provide s om e ge ne ralde m ograph ic data as a m e ans of de s cribing th e
popul  ation incl ude d in th is proje ct.

SSA RECO RD S IND ICATE M O ST NO NCITIZ EN STO P RECIPIENTS ARE
FRO M M EXICO

A s pre vious ly s tate d, re s ide ncy probl e m s are be l
                                                           ie ve d to be pre val   e nt in citie s
along th e U.S.-M e xican borde r. Individual       s can obtain SSIw h il     e in th e Unite d
State s and s ubs e q ue ntl   y m ove to M e xico. Ifnot de te cte d, re cipie nts w il   lcontinue
to re ce ive paym e nts to w h ich th e y are not e ntitl  e d. Th is ris k m ay incre as e bas e d
on individual   s ’ink
                   l s to fore ign countrie s (e .g., re m aining fam il    ie s and/or frie nds ,
com fort l e ve lw ith life s tyle in th at country). According to SSA ’       s data,
9 66 (45.8 pe rce nt)STO P re cipie nts are not U.S. citize ns . O f th e s e ,
879 (9 1.0 pe rce nt)are from M e xico, and 87 (9 .0 pe rce nt)are from oth e r
countrie s , incl uding th e Uk raine , India, Le banon, Is rae l  , France , and Cuba.5

Noncitize n STO P Re cipie nts W e re A dm itte d to th e Unite d State s Law ful
                                                                                ly

A s s h ow n in th e fol
                       low ing tabl e , SSA re cords indicate th at m os t of th e noncitize n
STO P re cipie nts w e re adm itte d to th e Unite d State s l
                                                             aw ful  l
                                                                     y. SSA re cords did not
indicate th e noncitize n s tatus for a s m allnum be r of cas e s .




5
    Its h oul
            d be note d th at th e s tudy popul
                                              ation w as adjudicate d as al ie n e l
                                                                                   igibl
                                                                                       e unde r th e form e r
s tandards unde r title XVIof th e SocialSe curity Act. Re cipie nts m ay h ave be com e U.S. citize ns
                        e d to SSIbut h ave not inform e d SSA of th e ir ch ange in citize ns h ip s tatus .
s ince be com ing e ntitl



                                                       5

                       Tabl
                          e 1: STO P Re cipie nts W e re Law ful
                                                               ly Adm itte d
    NO NCITIZ EN STA TUS                                                               PERCENTAGE

    Law ful   l
              y adm itte d to th e Unite d State s for pe rm ane nt
    re s ide nce                                                                                 86.3%
    Grante d l aw fulte m porary re s ide nt s tatus by th e provis ions
    of th e Im m igration Re form and ControlA ct of 19 86                                       12.1%
    O th e r (e .g., grante d as y l
                                   um , unk now n, e tc.)                                          1.6%


REGARDLESS O F CO UNTRY O F O RIGIN, M A NY STO P RECIPIENTS
REQUEST SSA CO M M UNICATIO NS IN SPANISH

O ve ral l, 75.1 pe rce nt of STO P re cipie nts (incl  uding s om e U.S. citize ns )re q ue s te d
th at com m unications from SSA be in Spanis h . Th e s e individual         s are , m os t l ik e l
                                                                                                   y,
m ore com fortabl    e re ading and s pe ak ing Spanis h th an Engl   is h in th e ir e ve ryday
live s . In com bination w ith th e back ground of th e re cipie nts (i.e ., m any are
H is panic), th is s ugge s ts th at th e s e individual
                                                       s could pos s ibly live and w ork in
M e xico.

O VER O NE-H A LF O F STO P RECIPIENTS PRO VID ED SSA W ITH TH E
SAM E ADDRESS AS AT LEAST TW O O TH ER RECIPIENTS

A totalof 1,205 STO P re cipie nts (57.2 pe rce nt)provide d SSA w ith th e s am e
addre s s as at l  e as t 2 oth e r STO P re cipie nts . Lis tings of addre s s e s w ith m ul     tipl
                                                                                                      e
re cipie nts can be us e fulin ide ntifying q ue s tionabl      e re s ide nt addre s s e s for
re cipie nts . For a re ce nt O IG audit, O IG provide d th e Ch ul        a Vis ta, Cal   ifornia, FO
w ith a l is ting of re cipie nts w h o cl aim e d re s ide ncy w ith at l  e as t tw o oth e r re cipie nts
at th e s am e addre s s . Th e Ch ul   a Vis ta FO incl    ude d 31 of th e s e re cipie nts in a
re s ide ncy ve rification pil ot proje ct. Th e FO found th at 18 (58.1 pe rce nt)of th e 31
re cipie nts did not l  ive at th e re s ide nce of re cord, incl   uding 7 w h o w e re not U.S.
re s ide nts . Paym e nts to th e s e 18 re cipie nts w e re s ubs e q ue ntl    y s us pe nde d or
te rm inate d.  6




O ne -Fifth of STO P Re cipie nts H ave Sam e A ddre s s Lis te d by at Le as t Se ve n O th e r
Re cipie nts

O ve rall
        , 450 (21.4 pe rce nt)STO P re cipie nts s h are d a com m on addre s s w ith at
l                                                       ocations , s uch as m ail
e as t 7 oth e r STO P re cipie nts . Som e of th e s e l                       -box s e rvice s ,

6
  SSA/O IG, Th e A de q uacy of th e Re s ide ncy Ve rification Proce s s for th e Suppl
                                                                                       e m e ntalSe curity
Incom e Program , A -06-9 6-62001, M ay 19 9 7, page 4.



                                                       6

m igh t s ugge s t a h igh e r ris k of re s ide ncy is s ue s . O th e rs , s uch as public h ous ing or
nurs ing h om e s , m ay s ugge s t a l   ow e r ris k of re s ide ncy is s ue s . Th e foll
                                                                                           ow ing tabl e
s h ow s th e diffe re nt type s of l iving arrange m e nts and/or addre s s e s for th e s e
re cipie nts .

           Tabl
              e 2: M ore Th an Se ve n STO P Re cipie nts Sh are Sam e A ddre s s
            TYPE O F A D D RESS                              NUM BER O F RECIPIENTS

            Publ
               ic H ous ing                                              232
            A partm e nts                                                 73
            O th e r (H ote l
                            s , Fos te r H om e s , e tc.)                71
            M ailBox Re ntal
                           s                                              64
            Nurs ing H om e                                               10

            Total                                                        450


USE O F CO M M ERCIA LM A ILBOXES MAY IND ICATE PRO BLEM S

Atl  e as t 67 of th e STO P re cipie nts re nte d m ailboxe s to re ce ive th e ir
corre s ponde nce and be ne fit ch e ck s . Th e s e re cipie nts re nte d m ailboxe s from
3 m ailbox s e rvice s , w ith 64 of th e m re nting from 2 s e rvice s and 3 individual        s
re nting from th e oth e r s e rvice s . Al  lth re e s e rvice s are w ith in w al
                                                                                  k ing dis tance of
th e M e xican borde r. W h il  e s om e STO P re cipie nts m igh t re nt m ailboxe s be caus e
of th e th re at of th e ft from re s ide ntialm ailboxe s , oth e rs m igh t re nt th e m for oth e r
re as ons , including fraudul   e nt purpos e s .

SSA re q uire s th at a s tre e t addre s s be obtaine d from any pe rs on us ing a m ailbox
as an addre s s . By m ak ing a m ailbox addre s s appe ar as a re s ide nce , th e
re q uire m e nt is circum ve nte d and th e pos s ibil ity of re cipie nts fraudul    e ntl
                                                                                           y re ce iving
SSIincre as e s . In adve rtis ing m ailbox re ntal     s , s om e bus ine s s e s in ElPas o s tate ,
"Us e O ur Stre e t Addre s s " or "Stre e t Addre s s M ail    boxe s ." Th e addre s s e s th at
re cipie nts provide to SSA w il    lincl  ude th e s tre e t addre s s of th e m ailbox s e rvice .
Rath e r th an us e th e te rm "m ailbox" in th e ir addre s s , w e found re cipie nts us ing
oth e r de s criptive inform ation, incl  uding A PT. 78, SUITE 78, NO . 78, or # 78.

Congre s s H as Expre s s e d Conce rn w ith Us e of M ailBoxe s

Congre s s h as e xpre s s e d conce rn th at noncitize n nonre s ide nts m ay be us ing m ail
boxe s in tow ns ne ar th e U.S.-M e xico borde r to fraudul    e ntly re ce ive Gove rnm e nt
be ne fits . In Fe bruary 19 9 7, th e Ge ne ralA ccounting O ffice (GA O )re porte d th at
Gove rnm e nt age ncie s h ave a varie ty of proce dure s to pre ve nt inappropriate re ce ipt


                                                     7

of be ne fits by noncitize n nonre s ide nts . H ow e ve r, w h e n re s ide ncy fraud is
com m itte d, th e s e s am e age ncie s do not capture s pe cific inform ation on re cipie nts '
us e of m ailboxe s to com m it th e fraud. Th e y ofte n l     um p th e s e fraudul e nt cas e s
into ge ne ralcate gorie s , s uch as "re s ide ncy is s ue s ." Th e re fore , GA O coul d not
gauge th e e xte nt of th e probl  em.

TH IRTEEN PERCENT O F STO P RECIPIENTS RESID E IN PUBLIC
H O USING

Th e re are s e ve n public h ous ing com pl
                                           e xe s in th e tw o s am ple Z IP code s . O ve ral   l
                                                                                                 ,
274 re cipie nts (13.0 pe rce nt)re s ide in publ  ic h ous ing. O f th e s e re cipie nts , 223
re s ide in 2 of th e 7 com pl e xe s .

Re s ide nts m us t m e e t s pe cific e l    ity crite ria to obtain publ
                                         igibil                             ic h ous ing. Th e re fore ,
th e s e re cipie nts are l     y to be U.S. re s ide nts at th e tim e th e y obtain th e h ous ing.
                           ik e l
In addition, th e y are m ore l    ik e l
                                        y to re m ain in th e Unite d State s be caus e : (1) th e ir
re nt paym e nts are bas e d on th e ir financialre s ource s , m ak ing th e h ous ing
"affordabl    e;" and (2) th e ince ntive to l   ive in M e xico, w h e re re nt is ge ne ral
                                                                                            ly l
                                                                                               ow e r,
is re duce d.

STO P RECIPIENTS ARE LESS LIK ELY TO H A VE PAYEES TH AN TH E
NA TIO NA LSSI PO PULA TIO N

In th e pl anning s tage s for th is proje ct, w e re ce ive d ge ne ralal   le gations re garding
th e rol e paye e s m ay pl ay in re s ide ncy fraud. For e xam pl      e , SSA s taff all
                                                                                         e ge d th at
ch ildre n m ay bring th e ir pare nts from M e xico, appl      y for age d SSI for th e ir pare nts
(once th e ir pare nts h ave e s tabl is h e d re s ide ncy), appl y to be paye e s , and th e n s e nd
th e ir pare nts back to M e xico. SSA s taff furth e r al     le ge d th at paye e s w oul d
continue to re ce ive th e SSIpaym e nts and us e th e m one y for th e ir ow n purpos e s .

A s s h ow n in table 3, th e pe rce ntage of age d STO P re cipie nts w ith paye e s w as
l
e s s th an th e nationalpopul  ation. SSA ’    s data w ould s ugge s t th at th e rol
                                                                                      e paye e s
play in re s ide ncy fraud m ay be l  e s s th an al
                                                   le ge d.

                      Tabl
                         e 3: Fe w STO P Re cipie nts H ave Paye e s
                RECIPIENTS W ITH PAYEES                 NA TIO NA L*        STO P

                Total                                         34.6%           13.6%
                Adu l
                    ts                                        23.8%           20.8%
                A ge d                                          3.5%            2.1%
                Ch il
                    dre n                                     9 7.4%          9 9 .2%



                                                   8

               *A nnualStatis ticalSuppl
                                       e m e nt, 19 9 6, to th e SocialSe curity Bul
                                                                                   le tin


RECEIPT O F O A SD IBENEFITS M A Y SUGGEST PRIO R U.S. RESID ENCY

In th e STO P unive rs e , 46.3 pe rce nt of re cipie nts re ce ive both SSIand O A SD I
be ne fits . To q ual ify for O A SD Ibe ne fits , th e s e individual s or th e ir re l
                                                                                       ative s m us t
h ave w ork e d at SocialSe curity cove re d e m pl       oym e nt to e arn th e m inim um cre dits
for cove rage . Th is m ay s ugge s t th at th e y w e re pre vious l   y U.S. re s ide nts .
Furth e r, O A SD Ibe ne fits , in addition to SSI, m ay provide s ufficie nt re s ource s to
m ak e re s iding in th e Unite d State s m ore affordabl      e.

M A JO RITY O F STO P RECIPIENTS ARE RECEIVING SSIBASED O N AGE

Th e ove ral lnationalpe rce ntage of age d SSIre cipie nts d e cl    ine d from 61 pe rce nt in

January 19 74 to 33 pe rce nt in D e ce m be r 19 9 5. H ow e ve r, 52.2 pe rce nt of STO P

re cipie nts w e re re ce iving SSIbas e d on age .7 Th e h igh rate of age d STO P

re cipie nts corre s ponds w ith nationaldata re porte d in a prior re port w h ich s h ow e d

th at 61.0 pe rce nt of al   lnoncitize n SSIre cipie nts w e re re ce iving as s is tance for th e

age d as of D e ce m be r 19 9 3.8





                     *(Totalof individualpe rce nts do not e q ual100.0 pe rce nt due
                     to rounding.)




7
  W e found cas e s w h e re individual
                                      s re ce iving SSIbas e d on a de te rm ination of dis abil
                                                                                               ity w e re
 igibl
el   e for SSIbas e d on age .

8
   D e partm e nt of H e al
                          th and H um an Se rvice s , O IG, Le tte r to th e H onorabl
                                                                                     e W il
                                                                                          liam S. Coh e n,
A -09 -9 4-00057, D e ce m be r 19 9 4, p. 2.



                                                        9

GEND ER BREA K D O W N O F STO P RECIPIENTS M IRRO RS TH E
NA TIO NA LSSI PO PULA TIO N

A s s h ow n in th e table be low , th e pe rce ntage of fe m al
                                                               e s and m al
                                                                          e s in th e STO P
unive rs e w as s im il
                      ar to th e nationalSSIpopul     ation.9

                                   Tabl
                                      e 4: Ge nde r Bre ak dow n
                                                                 RECIPIENTS
                 RECIPIENTS GEND ER
                                                      National
                                                             *                   STO P

                 Fe m al
                       e                               58.3 %                   58.0 %
                 M al
                    e                                  41.7 %                   42.0 %
              *A nnualStatis ticalSuppl
                                      e m e nt, 19 9 6, to th e SocialSe curity Bul
                                                                                  le tin


IN A LLCATEGO RIES O F SSIASSISTANCE, RECIPIENTS ARE M O RE
LIK ELY TO BE FEM A LE.

A s s h ow n in th e tabl  e be l
                                ow , in both th e nationalSSIpopul    ation and STO P, th e re
w e re m ore fe m al e s th an m ale s re ce iving SSIin e ach cate gory of as s is tance .

                    Tabl
                       e 5: M ore Fe m al
                                        e s Re ce ive SSITh an M al
                                                                  es
                CA TEGO RY O F       NA TIO NA L*              STO P
                ASSISTANCE
                                           Fe m al
                                                 e        M al
                                                             e         Fe m al
                                                                             e         M al
                                                                                          e

                Ol
                 d-A ge                    72.8%         27.2%         61.2%          38.9 %
                Bl
                 ind                       58.2%         41.7%         54.6%          45.5%
                D is abil
                        ity                58.3%         41.7%         56.5%          43.5%

                Al
                 lRe cipie nts             58.3%         41.7%         58.0%          42.0%
             *A nnualStatis ticalSuppl
                                     e m e nt, 19 9 6, to th e SocialSe curity Bul
                                                                                 le tin


STO P RECIPIENTS ARE M O RE LIK ELY TO BE AGED TH AN TH E
NA TIO NA LSSI PO PULA TIO N



9
   In th is and th e finaltw o findings , our goalw as to s h ow s im il
                                                                       aritie s and diffe re nce s of th e STO P
re cipie nt unive rs e as com pare d to th e nationalSSIpopul  ation (rath e r th an th e nationalal ie n SSI
popul  ation).


                                                       10

STO P re cipie nts w e re m ore l  ik e l
                                        y to be ove r age 65 th an th e nationalSSI
popul   ation. In th e STO P unive rs e , 64.2 pe rce nt of re cipie nts w e re 65 ye ars or
ol de r, w h ich is al
                     m os t 2 tim e s gre ate r th an th e nationalrate (32.5 pe rce nt);
29 .7 pe rce nt are be tw e e n 18 and 64 ye ars of age com pare d to 53.5 pe rce nt of
th e nationalpopul    ation;and 6.1 pe rce nt are 17 or younge r com pare d to
14.1 pe rce nt of th e nationalpopul       ation. Th e ave rage age for al lSTO P re cipie nts
w as 62 (65 for fe m al   e s and 58 for m al    e s ).

                               Tabl
                                  e 6: Age O f Re cipie nts
                RECIPIENTS' AGES                     NA TIO NA L*           STO P

                Unde r 5                                  2.3%              1.6%
                5-9                                       4.2%              1.7%
                10-14                                     4.9 %             1.8%
                15-17                                     2.7%              1.0%

                Subtotal(17 or younge r)                14.1%               6.1%

                18-21                                     3.5%              1.6%
                22-29                                     7.3%              3.4%
                30-39                                    12.3%              4.5%
                40-49                                    12.1%              5.6%
                50-59                                    12.0%              7.8%
                60-64                                     6.3%              6.8%

                Subtotal(18-64)                         53.5%              29 .7%

                65-69                                     9 .0%            19 .6%
                70-74                                     8.3%             18.0%
                75-79                                     6.1%             12.5%
                80 or ol
                       de r                               9 .1%            14.1%

                Subtotal(65 or ol
                                de r)                   32.5%              64.2%
              *A nnualStatis ticalSuppl   e m e nt, 19 9 6, to th e SocialSe curity
              Bulle tin. (Totalof individualpe rce nts do not e q ual100.0 pe rce nt due
              to rounding.)

O TH ER QUESTIO NA BLE RESID ENCY SITUA TIO NS




                                                 11

W e w e re al   e rte d to oth e r q ue s tionable re s ide ncy s ituations . Bas e d on SSA ’    s data
al one , w e are not abl	   e to s ugge s t a l e ve lof ris k as s ociate d w ith th e s e s ituations
(i.e ., num be rs of re cipie nts pote ntial    	y fal
                                                l     ling into th e s e cate gorie s ).
• A partm e nts cate ring to trans ie nt popul          ations —Individual   s m ay re nt room s at
     apartm e nt h ous e s at rate s s ufficie ntl  y l ow s o as to al  low re cipie nts to m aintain
     a "re s ide nce " in th e Unite d State s w h il   e actual ly living in M e xico.

• Re cipie nts in th e care of oth e rs —W h e n th e addre s s s h ow s th e re cipie nt in th e
  care of anoth e r pe rs on, it m igh t be th at th e re cipie nt doe s not actual      ly re s ide at
  th is addre s s . Rath e r, th e re cipie nt jus t re ce ive s corre s ponde nce th e re w h il e
  actual l               s e w h e re .
          y re s iding e l

• Re cipie nts re ce iving m ailat al   te rnate addre s s e s —Sim il    ar to th e us e of m ailbox
  s e rvice s and th e s ituations pre s e nte d above , s om e re cipie nts ch oos e to h ave
  th e ir m ails e nt to addre s s e s oth e r th an th e ir re s ide nce addre s s . Re as ons for
  doing s o incl   ude : (1)l ook ing for a s tabl    e addre s s be caus e th e y m ove
  fre q ue ntly;(2)pre ve nting th e ft of th e ir m ail    ;and (3)trave l    ing fre q ue ntl
                                                                                              y and
  w is h ing to h ave s om e one w h o can re s pond to th e ir m ail       .




                                                   12

      CO NCLUSIO N AND RECO M M END A TIO N


Th e O IG s e l e cte d al
                         lre cipie nts in th e tw o s am pl  e Z IP code s to de te rm ine th e e xte nt of
re s ide ncy is s ue s for a pote ntially h igh -ris k unive rs e of SSIre cipie nts . In future
proje cts , our goalw il   lbe to profil  e pote ntialnonre s ide nts to h e lp m axim ize th e re turn
on e fforts s im il ar to STO P and h e l  p SSA ide ntify nonre s ide nts be fore th e y re ce ive SSI.

SSA ’  s data, us e d in com bination w ith oth e r s ource s of inform ation, provide a
val  uabl e toolfor ide ntifying pote ntialnonre s ide nts . For e xam pl
       e , w e ide ntifie d
re cipie nts w h o us e d com m e rcialm ailbox s e rvice s by se arch ing th e l       ocalte l e ph one

book for th e addre s s e s of com m e rcialm ailbox s e rvice s and com paring th e s e
addre s s e s to th os e of re cipie nts . Us ing s im ilar te ch niq ue s , w e ide ntifie d
individual   s living in nurs ing h om e s and publ    ic h ous ing. Th e s e re cipie nt "groups "
w arrant diffe re nt l  e ve l
                             s of re vie w not onl  y during a re s ide ncy s tudy, s uch as
STO P, but at th e tim e of initialappl      ication. Th e re fore , w e re com m e nd th at SSA
cons ide r SSIcl    aim ants ’ch aracte ris tics (e .g., type of addre s s )in de ve l    oping
proce duralguidance to as s is t FO s in ide ntifying SSIcl         aim ants w ith q ue s tionabl     e
re s ide ncy s tatus .10

SSA CO M M ENTS AND OIG REPO NSE

SSA agre e d w ith our re com m e ndation and w il    lupdate its PO M S accordingl  y. W e
m ade m inor re vis ions to th e re port to re fl
                                                e ct SSA ’
                                                         s te ch nicalcom m e nts . (Se e
A ppe ndix A for a ful lte xt of SSA ’ s com m e nts .)




10
    Th is is not to s ugge s t th at SSA sh oul   d us e al
                                                          lch aracte ris tics ide ntifie d in th is re port for al l
re cipie nts and/or cl aim ants . D iffe re nt re gions of th e Unite d State s m ay h ave diffe re nt
ch aracte ris tics (or com binations of ch aracte ris tics )w h ich m igh t indicate q ue s tionabl    e re s ide ncy
s tatus .


                                                           13

A PPEND ICES

                      A PPEND IX A



AGENCY CO M M ENTS

                                                                                  A PPEND IX B


     M A JO R REPO RT CO NTRIBUTO RS


   O ffice of th e Ins pe ctor Ge ne ral

   W il
      liam Fe rnande z, D ire ctor, Program Audits (W e s t)


   Brian Pattis on, D e puty D ire ctor


   Frank A l                       uator

           m e ndare z, Se nior Eval

    s ie Ch ais s on, Se nior Eval
   El                            uator

   Ge orge D e Luna, Se nior Eval
                                uator


For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral s Publ
          ’     ic A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -06-9 7-62001.
                          A PPEND IX C



SSA O RGANIZ A TIO A LCH ART

